Nos. 19-1231 & 19-1241
IN THE

FEDERAL COMMUNICATIONS COMMISSION, ET AL.,

Petitioners,
v.
PROMETHEUS RADIO PROJECT, ET AL.,

Respondents.
NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,

Petitioners,
v.
PROMETHEUS RADIO PROJECT, ET AL.,

Respondents.
On Petition for Writs of Certiorari to the
United States Court of Appeals for the Third Circuit
BRIEF OF GRAY TELEVISION, INC. AS AMICUS
CURIAE IN SUPPORT OF PETITIONERS
KEVIN P. LATEK
ROBERT J. FOLLIARD III
GRAY TELEVISION, INC.
4370 Peachtree Rd., NE
Suite 400
Atlanta, GA 30319
(404) 266-8333
May 20, 2020

DAVID E. MILLS

Counsel of Record
ELIZABETH B. PRELOGAR
ROBERT M. MCD OWELL
COOLEY LLP
1299 Pennsylvania Ave., NW
Suite 700
Washington, DC 20004
(202) 842-7800
dmills@cooley.com

[Additional counsel listed on inside cover]

BARRETT J. ANDERSON
COOLEY LLP
4401 Eastgate Mall
San Diego, CA 92121
(858) 550-6000

Counsel for Amicus Curiae

I
TABLE OF CONTENTS
Page
STATEMENT OF INTEREST..................................... 1
SUMMARY OF ARGUMENT...................................... 3
ARGUMENT ................................................................. 4
I.

II.

Gray’s Business Model Is To Improve
And Expand Local News Coverage
Through Increased Investment Allowed
By Economies of Scale. ...................................... 4
A.

The Economics of Local
Television. ............................................... 5

B.

Gray’s Business Strategy. ...................... 8

C.

The FCC’s Duopoly Rule. ..................... 16

The Court Should Grant The Petitions
Because The Third Circuit’s Decision
Creates Uncertainty For Businesses
Like Gray’s And Forestalls Further
Improvements To Local News
Production In Small And Mid-Sized
Markets............................................................. 23

CONCLUSION ............................................................ 26

II
TABLE OF AUTHORITIES
Page(s)
Statutes
47 U.S.C.
§ 308 ..........................................................................5
§ 309 ..........................................................................5
Telecommunications Act of 1996, Pub. L. No.
104-104, § 202(h), 110 Stat. 56 111-12
(1996) .........................................................................4
Other Authorities
47 C.F.R.
§ 73.622 .....................................................................5
§ 73.3555 .................................................................17
Federal Communications Commission, “Part
4—Broadcast Services Other Than
Standard Broadcast,” 6 Fed. Reg. 2282
(May 6, 1941) ................................................... 18, 20

In the Matter of 2002 Biennial Regulatory
Review—Review of the Commission’s
Broadcast Ownership Rules,
18 FCC Rcd. 13620 (2003) .....................................15

In the Matter of 2014 Quadrennial Regulatory
Review—Review of the Commission's
Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of
the Telecommunications Act of 1996,
29 FCC Rcd. 4371 (2014) .......................................17

III
TABLE OF AUTHORITIES
(continued)
Page(s)

In the Matter of 2014 Quadrennial Regulatory
Review—Review of the Commission's
Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of
the Telecommunications Act of 1996,
32 FCC Rcd. 9802 (2017) ...............................passim

In the Matter of Amendment of Section
73.3613 of the Commission’s Rules
Regarding Filing of Contracts,
33 FCC Rcd. 10381 (2018) .....................................17

In the Matter of Annual Assessment of the
Status of Competition in the Market for the
Delivery of Video Programming ,
32 FCC Rcd. 568 (2017) ...................................... 6, 7

In the Matter of Review of the Commission’s
Regulations Governing Television
Broadcasting,
14 FCC Rcd. 12903 (1999) .............................. 18, 19

USA Station Group Partnership of Atlanta v.
Community Cable Television ,
15 FCC Rcd. 6279 (2000) .........................................5
Steven Waldman, The Information Needs of
Communities, Federal Communications
Commission (July 2011) .......................... 16, 20, 21
U.S. Gov’t Accountability Office, GAO-10-369,

Media Programming: Factors Influencing
the Availability of Independent
Programming in Television and
Programming Decisions in Radio (2010)................7

STATEMENT OF INTEREST1
Gray Television, Inc. (“Gray”) is a national
television broadcast company headquartered in
Atlanta, Georgia.
Gray owns or operates 162
television
stations
that
collectively
reach
approximately 24% of U.S. television households in 93
Designated Market Areas (“DMAs”), as defined by The
Nielsen Company.2 While Gray owns stations in
markets as large as Tampa, Florida (DMA #12 of 210),
its stations are primarily concentrated in small and
mid-sized markets across the country, with the

1

No counsel for a party authored this brief in whole or in part,
and no person other than amicus or its counsel made a monetary
contribution to this brief’s preparation and submission. All
parties were provided notice of this filing 10 days before its due
date and have consented to this filing. Undersigned counsel
previously represented Cox Media Group (“CMG”), a broadcaster
and an intervenor below and, by default, a respondent
here. CMG did not participate on the merits below and informed
this Court and all counsel of record that it will not participate in
this case. Undersigned counsel does not currently represent
CMG in this case.
2
See The Nielsen Company, Local Television Market Universe
Estimates (2019–2020), https://www.nielsen.com/wp-content/
uploads/sites/3/2019/09/2019-20-dma-ranker.pdf. For reference,
the top ranked DMA is New York City, with 6,824,120 television
households. The tenth ranked DMA is Atlanta, with 2,269,270
households. The top 27 DMAs have more than 1,000,000
households each. DMAs 28–59 have between 500,000 and
1,000,000 households each. DMAs 60–105 have between 250,000
and 499,999 households each. DMAs 106–164 have between
100,000 and 249,999 households each. And DMAs 165–210 have
fewer than 100,000 households each, with Glendive, Montana
ranked DMA #210, with 3,630 households.

2

majority in markets with fewer than 500,000
television households.
Gray has a substantial interest in the two
petitions because, as a national broadcast company,
its business is governed by the media ownership
regulations
promulgated
by
the
Federal
Communications Commission (“FCC”). Gray has
advocated for relief from the FCC’s outdated
ownership rules for a decade. In comments and ex
parte letters, Gray has repeatedly explained to the
FCC why permitting duopolies in small and mid-sized
markets would improve service to the public and help
stations maintain their financial health in an
environment of accelerating competition. Gray raised
these same points in comments that it submitted in
the FCC proceeding that generated the 2017 revisions
to station ownership rules, which were reversed by the
decision of the U.S. Court of Appeals for the Third
Circuit below.
Gray also has an interest in the petitions because
it is directly affected by the decades-old ownership
rules that the FCC seeks to modernize, but that were
effectively reinstated by the Third Circuit’s decision.
Those obsolete rules directly impede Gray’s business
strategy for competing in today’s media environment,
which is to acquire leading television stations in small
and mid-sized markets, improve and expand their
local programming, and then acquire a second station
in those markets to obtain greater local scale and
spread costs among multiple stations.

3

SUMMARY OF ARGUMENT
Local television stations were once at the center
of broadcast media and entertainment in the United
States, but recent decades brought a proliferation of
competition from the Internet and other modern forms
of media and programming. With Americans able to
consume media from so many new sources unavailable
in past eras, television audiences in small and midsized markets have fragmented while the costs of
producing local news have exploded, saddling
television stations with more expenses and less
revenue. New business models—like the strategy
adopted by Gray—leverage national and local
economies of scale to re-invigorate local television in
small and mid-sized markets, along with the stations’
local news operations, all of which benefits the public
interest. But the FCC’s long-outdated ownership
rules, adopted at a different time to regulate a
different broadcast market, prevent these new
business models from achieving their full promise.
The FCC recognized that the time had come to
update those regulations and took critical steps to do
so in the 2017 regulations. But the Third Circuit,
which has repeatedly stood in the way of the FCC’s
modernization efforts, once again invalidated the
FCC’s new rules.
The Third Circuit’s ruling
significantly hinders further investment and
expansion of local news production in small and midsized markets to the detriment of the millions of
Americans who live in those cities and towns. The
Court should grant the petitions and reverse the Third
Circuit’s decision.

4

ARGUMENT
Petitioners explain how the Third Circuit’s
decision in this case conflicts with Section 202(h) of the
Telecommunications Act of 1996, Pub. L. No. 104-104,
§ 202(h), 110 Stat. 56 111-12 (1996). Gray agrees with
those arguments and will not repeat them here.
Instead, Gray submits this brief to explain the realworld harms that result from the Third Circuit’s
decision, which demonstrate the urgent need for this
Court’s review.
I.

Gray’s Business Model Is To Improve And Expand
Local News Coverage Through Increased
Investment Allowed By Economies of Scale.

Gray’s core business strategy depends on
leveraging its national scope to acquire leading local
television stations in small and mid-sized markets,
and then invest in, expand, and modernize those
stations’ newsgathering and reporting capabilities.
When possible, Gray also seeks to acquire a second
television station in each local market to take
advantage of economies of scale and spread its high
fixed costs across two stations.
Moreover, by
associating the local brand of the leading station in the
market with the second-acquired station and
promoting Gray’s programming across both stations,
Gray elevates the profile of the second station and
both stations achieve higher ratings than either could
on its own.
Gray has achieved great success with this
approach, realizing increased revenue and improving
local news coverage across the country. But the FCC’s
outdated rules regulating ownership of television

5

stations—originally adopted in 1941—present an
enormous obstacle to Gray’s ability to compete in the
vastly changed modern media landscape. The Third
Circuit’s decision preventing the FCC from
modernizing those rules has a serious and negative
effect on Gray’s model, with harmful consequences for
the development of local news programming in small
and mid-sized markets.
A. The Economics of Local Television.
Federal law provides the FCC the power to grant
broadcast licenses to television stations, with only a
limited number of licenses available in any one
geographic area. See 47 U.S.C. §§ 308, 309; 47 C.F.R.
§ 73.622. Each commercial television station in the
United States is assigned to a community located in
one of 210 Designated Market Areas (“DMAs”) defined
by The Nielsen Company. 3 These markets are ranked
by size according to the number of television
households they contain, with the market having the
most ranked 1 (New York City) and the market having
the fewest ranked 210 (Glendive, Montana). 4 Each
DMA is an exclusive geographic area consisting of all
counties (and in some cases, portions of counties) in
which the home-market commercial television
stations receive the greatest percentage of total
viewing hours. See USA Station Group Partnership of
Atlanta v. Community Cable Television , 15 FCC Rcd.
6279, 6279, ¶ 2 (2000).
Television station revenue is derived primarily
from two sources: (1) local, regional, and national
3
4

See The Nielsen Company, supra note 2.
See The Nielsen Company, supra note 2.

6

advertising and (2) retransmission consent fees. See

In the Matter of Annual Assessment of the Status of
Competition in the Market for the Delivery of Video
Programming, 32 FCC Rcd. 568, 609, ¶ 103 (2017)
(“2017 Video Competition Report”). First, advertising
revenue
mainly
consists
of
payments
for
advertisements broadcast by television stations. See
id. at 616, ¶¶ 120–21. Advertising rates are generally
based on the size of the audience generated by a
particular program aired on a particular station. See
id. at 609, ¶ 103. With smaller populations and
therefore fewer viewers, smaller markets necessarily
generate less advertising revenue than larger
markets.
In the Matter of 2014 Quadrennial

Regulatory Review—Review of the Commission's
Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications
Act of 1996, 32 FCC Rcd. 9802, 9835–36, ¶ 77 (2017)
(“2017 Reconsideration Order”). Thus, purchasing or
producing the highest rated programming with the
largest number of viewers is crucial to the success of
small-market television stations.
The
second
major
source
of
revenue,
retransmission consent fees, consists of payments by
multichannel
video
programming
distributors
(“MVPDs”)—e.g., cable and satellite television
companies—in exchange for a television station’s
permission for an MVPD to retransmit the station’s
signal to its paying subscribers.
2017 Video
Competition Report at 618, ¶ 124. Retransmission
consent rates are largely driven by affiliation with one
of the “Big 4” television networks (ABC, CBS, FOX,
and NBC) and, to a lesser extent, the local ratings of

7

an individual television station. 2017 Reconsideration
Order at 9836, ¶ 77. Because retransmission consent
rates are paid on a per-subscriber basis, smaller
markets necessarily generate less retransmission
consent revenue than larger markets.
The two types of programming most likely to drive
a station’s audience ratings higher, and thus increase
station revenues, are affiliation with a Big 4 network
and building a strong local news brand. 2017 Video
Competition Report at 614, ¶ 117 (comparing ratings
of network-affiliated stations to independent stations);
Pew Research Center, For Local News, Americans

Embrace Digital But Still Want Strong Community
Connection 4 (Mar. 26, 2019) (“2019 Pew Report”)
(“Local TV stations are turned to most for local news,
primarily through the TV set; most other providers
have larger digital share”);5 U.S. Gov’t Accountability
Office, GAO-10-369, Media Programming: Factors

Influencing the Availability of Independent
Programming in Television and Programming
Decisions in Radio 19–20 (2010).
At the same time, it is resource intensive to
purchase Big 4 network programming and to produce
local news, requiring substantial capital investment
and ongoing operating expenses.
See 2017
Reconsideration Order at 9836, ¶ 77, n.229 (“In
5

Available at https://www.journalism.org/2019/03/26/for-localnews-americans-embrace-digital-but-still-want-strongcommunity-connection/. While this Pew publication shows
declining ratings for local television news in the past year, local
news remains more highly rated than non-network, non-news
programming.

8

particular, the record suggests that local news
programming is typically one of the largest
operational costs for broadcasters; accordingly,
stations may find that common ownership enables
them to provide more high-quality local programming,
especially in revenue-scarce small and mid-sized
markets.” (citing Letter from Robert M. McDowell,
Counsel to Gray Television, Inc., to Marlene H.
Dortch, Secretary, FCC, MB Docket No. 14-50, et al.,
at 3–4, 7–8 (June 28, 2017) (“2017 Ex Parte Letter”));
see also Adam Jacobson, Retransmission Consent
Revenue: An 11% Growth Engine , Radio+Television
Business Report (July 30, 2019). 6 Networks charge
local stations substantial programming fees for
network affiliation. Id. And local news production
requires capital spending for facilities and equipment
and continued expenses for talent and news
production, making such production one of
broadcasters’ largest operational costs.
2017
Reconsideration Order at 9836, ¶ 77.
The challenge of operating a profitable television
station in small and mid-sized markets is that the
station owner must find a way to afford the expenses
of operating a top-rated station despite the fact that
the station will necessarily generate smaller revenues
than its larger-market counterparts.
B. Gray’s Business Strategy.
Gray’s business strategy is to acquire the leading
station in a small or mid-sized market and, through
heavy investment, expand and improve local news
6

Available at https://www.rbr.com/retransmission-consentrevenue-an-11-growth-engine/.

9

programing in that market. Often the top-rated
station in its market—especially in smaller markets—
has held that position for decades, and the former
owner has ceased investing in that station. Once Gray
acquires the station, it purchases new, state-of-the-art
broadcast equipment and modernizes the workforce to
increase efficiency and profitability.
Gray also
expands the station’s local news programming, which
typically includes hiring more journalists and news
producers. With that leading station as a beachhead,
Gray acquires a second station in the same market—
usually
one
that
is
undervalued
and
underperforming—and
invests
the
resources
necessary to transform it into another top station.
Often the second station airs little or no local news
programming before Gray acquires it. In these
situations, Gray’s top station will share its news
programming with the second station, expanding local
news available in the market. Gray’s top-rated station
will heavily promote the availability of expanded news
programming on both stations to drive higher ratings.
Through this strategy, Gray acquires and converts
stations that were providing limited or no news and
public affairs programming into local-market news
leaders. Gray thereby both improves the stations’
profitability and creates an important community
resource that was previously lacking.
Gray’s strategy has been extremely successful. In
2019, Gray’s stations were the top-ranked stations in
68 of Gray’s 93 markets and claimed one of the top two
spots in 86 of those markets. At a time when local
newspapers and radio stations continue to shrink the
amount of local news they provide—particularly in

10

small markets—the public services that Gray’s
stations provide are increasingly critical to viewers’
ability to stay informed.
An example of Gray’s substantial investments in
smaller markets is WCJB TV20, which provides
coverage to the Gainesville, Florida DMA and to
Marion and Columbia Counties in North Central
Florida, located in the Orlando and Jacksonville
DMAs, respectively. Gray acquired WCJB in 2017.
For decades WCJB has been the dominant market
leader in Gainesville, yet soon after acquiring it, Gray
invested more than half a million dollars in improving
and expanding the station’s local news coverage. As a
direct result of those investments, WCJB has (among
other things) enlarged its Marion news bureau from
300 to 2,000 square feet, built a state-of-the-art news
set with a nine-screen video array behind the anchor
desk, and acquired new studio cameras and livebroadcast equipment (including four transmitters, two
receivers, and several remote workstations), and an
upgraded weather system with new local weather
cameras.
Gray immediately more than doubled
WCJB’s ability to conduct live broadcasts, allowing
the station to broadcast four live shots in four different
locations in one show. WCJB also invested in its staff,
hiring an additional live reporter to its morning show
team, creating new digital executive producer and
promotions producer positions, and adding shifts for
digital-dedicated producers. WCJB is planning to add
additional reporter positions in the near future. With
Gray’s resources, WCJB raised its employees’ salaries
across the board, including a 20% higher starting pay
for new reporters. These improvements have allowed

11

WCJB to provide a better, more comprehensive local
news product, and made WCJB a must-carry on cable
and satellite providers because of increased ratings.
Of the many local news operations that Gray has
launched or vastly improved following station
acquisitions, other examples also stand out:


Gray acquired two local television stations in
Roanoke, Virginia: WDBJ in 2016 and WZBJ in
2018. WDBJ has been the clear market leader
for most of its history. In contrast, WZBJ was
an afterthought and barely achieved any
ratings. Gray was only able to acquire WZBJ
because the FCC relaxed its local ownership
rules in the 2017 Reconsideration Order. Since
those purchases, Gray has added 15 hours per
week of local news on WDBJ and 18.5 hours per
week on WZBJ, which has turned WZBJ into a
true market competitor.



In 2016, Gray acquired KWCH and KSCW in
Wichita, Kansas. KWCH was the unquestioned
market leader in Wichita. Meanwhile, Gray
was able to acquire KSCW pursuant to a special
FCC failing station waiver. Since then, Gray
has added 17.5 hours of local news per week to
both stations. The stations have further grown
their viewership since Gray purchased them.

Gray’s television stations do not just cover the
news, they excel in the effort. In 2020, Gray’s stations
won 49 Regional Edward R. Murrow Awards for
excellence in journalism, including two stations—
WVLT in Knoxville, Tennessee and KFVS in Paducah,
Kentucky—that were recognized for overall excellence

12

in local journalism. 7 In 2019, Gray’s stations won 57
Murrow Awards. 8 Also in 2019, Gray’s WCTV in
Tallahassee, Florida won the prestigious NAB
Leadership Foundation Service to America Award for
coverage of the devastation wrought by Hurricane
Maria in Puerto Rico. 9 Gray’s investigative journalism
initiative, InvestigateTV—in which each of Gray’s
stations participates—was awarded two national
Headliner Awards in 2019, one for reporting on the
opioid crisis and another for investigative reporting on
the health and environmental effects of nuclear

7

Gray Television, Inc., RTDNA Awards 4 Regional Edward R.
Murrow Awards to 21 Gray Television Stations, 1–2 (May 13,
2020), https://graytv.gcs-web.com/static-files/effff5ea-2162-4755b44a-a072c808c4f6.
8
Gray Television, Inc., Gray Television’s Stations Awarded for

Commitment to Excellence in Local Journalism With 57 Regional
Edward R. Murrow Awards in 23 Gray Markets, GlobeNewswire
(April
24,
2019),
https://www.globenewswire.com/newsrelease/2019/04/24/1808611/0/en/Gray-Television-s-StationsAwarded-for-Commitment-to-Excellence-in-Local-JournalismWith-57-Regional-Edward-R-Murrow-Awards-in-23-GrayMarkets.html.
9
Gray Washington News Bureau., Gray Stations Honored at
Service to America Awards in DC (June 12, 2019),
https://www.graydc.com/content/news/Gray-stations-honored-atService-to-America-awards-in-DC-511195281.html.

13

weapons storage.10 Further, Gray’s New Orleans
station, WVUE, was honored by the Society of
Professional Journalists for its documentaries,
investigative
reporting,
and
public
service
11
journalism. The list of accolades grows annually as
Gray continues to invest in and improve local news
programming all over the nation.
Gray’s commitment to top-flight journalism is
recognized by local leaders. For example, on April 15,
2020, Governor Asa Hutchinson of Arkansas wrote to
the staff of KAIT-TV in Jonesboro, Arkansas to thank
the station for its coverage of a recent tornado.
Governor Hutchinson’s letter stated, “[b]ecause of
your keen understanding of Arkansas’ weather
patterns and knowledge of your community, you
undoubtedly saved lives during last month’s tornado
that was a direct hit to the City of Jonesboro.” 12
Gray’s investments in increasing and improving
local news programming are made possible through
10

Gray Television, Inc., Gray’s InvestigateTV Receives Two
First Place National Headliner Awards, GlobeNewswire (April
22,
2019),
https://www.globenewswire.com/news-release/
2019/04/22/1807332/0/en/Gray-s-InvestigateTV-Receives-TwoFirst-Place-National-Headliner-Awards.html.
11
Gray Television, Inc., WVUE Receives Three Sigma Delta
Chi Awards from The Society of Professional Journalists, 1 (April
29,
2019),
https://gray.tv/uploads/documents/pressreleases/
Press%20Release%20re%20SPJ%20Awards.pdf.
12
Glen Hale, Gov. Hutchinson Thanks Region 8 News for
Tornado
Coverage,
KAIT8
(May
18,
2020),
https://www.kait8.com/2020/05/18/gov-hutchinson-thanksregion-news-tornado-coverage/.

14

the economies of scale and scope that come from
operating a television business that is far larger than
any single market.
Given the limited revenue
potential of the small and mid-sized markets where
Gray operates, the company can support such highquality local journalism only if it is permitted to build
scale on both a national and a local basis.
Gray builds national scale by acquiring a large
number of stations in a large number of markets. The
revenue enables Gray to invest in its stations. As
newly acquired stations improve their performance,
they fund additional acquisitions, resulting in
additional opportunities for Gray to acquire and
improve stations across the country. Gray also builds
national news scale through maintenance of its
Washington News Bureau, which provides relevant
national news content to all Gray stations, and
InvestigateTV, which produces in-depth investigative
journalism addressing matters of national importance
and is distributed by Gray stations nationwide. 13 Gray
accordingly can spread its national newsgathering
costs across its entire station footprint, significantly
reducing costs for each individual station.

13

See Gray Television, Inc., Gray Announces Opening of
Washington, D.C. News Bureau to Deliver Hyper-Local Coverage
and Analysis of National Issues, Cision PR Newswire (Feb. 2,
2015),
https://www.prnewswire.com/news-releases/grayannounces-opening-of-washington-dc-news-bureau-to-deliverhyper-local-coverage-and-analysis-of-national-issues300028654.html; Gray Television, Inc., supra note 10 (describing
InvestigateTV initiative).

15

Gray builds local scale by, where possible, buying
more than one television station in a given market.
This allows Gray to fund its investment in local service
using two or more local or regional revenue streams.
Gray also builds local scale by buying stations in
adjacent markets and creating regional news bureaus
to create content for local stations in multiple
markets. Spreading these costs among multiple
stations reduces the allocated cost for each station.
Gray’s business strategy advances the significant,
recognized public interest in improving local television
service, particularly news and public affairs
programming. See, e.g., In the Matter of 2002

Biennial Regulatory Review—Review of the
Commission’s Broadcast Ownership Rules, 18 FCC
Rcd. 13620, 13644, ¶ 79 (2003) (“We agree that the
airing of local news and public affairs programming by
local television stations can serve as a useful measure
of a station's effectiveness in serving the needs of its
community.”).
For example, an industry expert
appointed by the FCC noted that:
Despite the industry’s problems, the best
of the local TV stations are still
producing
high-quality
broadcast
journalism of tremendous value to the
community—while reaching a far
broader audience than newspapers in
terms
of
size,
diversity,
and
socioeconomic status.
It is hard to
overstate the importance and value of
these broadcasts. During emergencies,
the local TV station is often considered to
be as vital a part of the local community

16

as the police and fire departments, and
despite cutbacks most local TV reporters
and managers believe they still are able
to excel in the midst of a crisis.
Waldman, The Information Needs of
Communities, Federal Communications Commission
Steven

79 (July 2011) (“Waldman”).14 Local news continues to
provide the important public service of informing the
American citizenry of critical current events, and it
remains the most popular way for individuals to
access the news. See 2019 Pew Report at 4 (“Even as
the preference for digital delivery creeps up on that for
news via TV, local television stations retain a strong
hold in the local news ecosystem. They top the list of
nine types of local news providers, with 38% of U.S.
adults saying they often get news from a local
television station.”).
Gray has replicated this strategy in dozens of
markets across the United States and is eager to
execute it in additional markets. Unfortunately, the
FCC’s outdated ownership rules, now reinstated by
the Third Circuit’s decision below, substantially limits
Gray’s ability to grow the local scale necessary to
continue its investments.
C. The FCC’s Duopoly Rule.
Since the dawn of broadcasting in the 1930s, the
FCC has sought to limit the ownership of television
stations that broadcasters can own on the national

14

Available at https://transition.fcc.gov/osp/inc-report/The_
Information_Needs_of_Communities.pdf.

17

and local levels. See In the Matter of Amendment of

Section 73.3613 of the Commission’s Rules Regarding
Filing of Contracts, 33 FCC Rcd. 10381 (2018). In
creating and maintaining these restrictions, the FCC
reasoned that structural ownership limitations were
necessary to preserve localism, diversity of ownership,
and competition in local television markets. See In the

2014 Quadrennial Regulatory Review—Review of the
Commission's Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of the
Telecommunications Act of 1996 , 29 FCC Rcd. 4371,
4377, ¶ 14 (2014) (“The media ownership rules have
consistently been found to be necessary to further the
Commission’s longstanding policy goals of fostering
competition, localism, and diversity.”).
On a local basis, the FCC maintains a Local
Television Ownership Rule that limits the number of
television stations that an entity can own. See 47
C.F.R. § 73.3555. 15 Although the FCC has repeatedly
attempted to modernize that rule, the Third Circuit
has consistently rejected the agency’s efforts, to the
substantial detriment of the local communities
affected by the Third Circuit’s decisions.
The FCC adopted its first limitation on local
television
ownership
in
1941.
Federal
Communications Commission, “Part 4—Broadcast
15

In addition, on a national basis, the FCC maintains a cap on
the percentage of national television households any single owner
of television stations can reach. That rule does not significantly
affect Gray’s efforts to acquire television stations in small and
mid-sized markets, and it was not part of the proceeding that led
to the Third Circuit’s decision in this case.

18

Services Other Than Standard Broadcast,” 6 Fed. Reg.
2282, 2284–2285 (May 6, 1941) (“1941 FCC Report”).
Dubbed the “one to a market” rule, it prohibited a
single owner from acquiring more than one full-power
television station in any television market. Id. That
remained the rule for nearly sixty years, until 1999,
when the FCC modestly relaxed the rule to allow an
entity to own a second television station in a market
if: (1) at least one of the stations was not ranked in the
top four (the “Top 4 Test”), and (2) at least eight
“independent voices”— i.e., independently-owned fullpower television stations—remained in the DMA after
consummation of the transaction (the “Eight Voices
Test”). In the Matter of Review of the Commission’s
Regulations Governing Television Broadcasting , 14
FCC Rcd. 12903, 12932–33, ¶ 64 (1999). Unless
prospective station owners could satisfy these two
tests, they were generally prohibited from acquiring a
second station in a DMA, a regulatory hurdle that
became known as the “Duopoly Rule.”
The Duopoly Rule included a waiver process by
which a station owner could apply for permission from
the FCC to acquire a second station in a DMA under
limited circumstances. Id. at 12936–41, ¶¶ 71–87.
Specifically, an owner may buy a second station in a
DMA if the target station is a “failed” station that has
not been in operation due to financial distress for at
least four consecutive months immediately prior to the
application, or is a debtor in an involuntary
bankruptcy or insolvency proceeding at the time of the
application. Id. at 12936–38, ¶¶ 71–77. In addition,
an owner can purchase a second station if the
acquisition target is a “failing” station that (1) has an

19

all-day audience share of no more than 4%; (2) has had
negative cash flow for three consecutive years
immediately prior to the application; and (3)
consolidation of the two stations would result in
tangible and verifiable public interest benefits that
outweigh any harm to competition and diversity. Id.
at 12938–40, ¶¶ 78–82.
Under this 1999 version of the Duopoly Rule,
ownership of more than one station in a television
market was limited to markets with at least nine fullpower television stations. Because the vast majority
of small and mid-sized markets have eight or fewer
stations, the 1999 Duopoly Rule still prohibited the
ownership of two full-power stations in most markets
outside the top 50 DMAs. Id. at 12935, ¶ 70. For
station owners like Gray that concentrate their efforts
in small and rural local markets, the modest changes
to the Duopoly Rule in 1999 effectively made no
difference. Except for the limited instances when a
failing station waiver allowed Gray to acquire a second
station in a few markets, the FCC’s ownership
limitations remained stalled in their 1941 form.16
When the “one to a market” rule was adopted,
television was in its infancy and radio was by far the

16

Since 2013, Gray has acquired seven stations under a failing
station waiver, despite a lack of eight independently owned
stations in those markets following the transaction. Before the

20

more popular form of broadcast media. 1941 FCC
Report at 2284–2285; see also Golden Age of Radio in
the US, Digital Public Library of America.17 Local
television stations, radio stations, and newspapers
provided the only sources of information and
entertainment for the majority of the population. See
Waldman at 59–60. While television eventually
eclipsed radio in audience and influence, this market
structure persisted well into the 1980s. See Radio
News Surpassed by TV in Survey , N.Y. Times (Sept.
1, 1984).18 Since the 1980s, local broadcast television
stations have faced an ever-growing onslaught of new
competitors. First cable operators introduced video
services that offered dozens, and later hundreds, of
new video channels. These niche channels—offering
24/7 sports, movies or national news programming—
began to fragment a video audience that had
previously belonged exclusively to broadcasters.
Waldman at 105.
Beginning in the late 1990s with the advent of
high-speed service connections, the Internet began
delivering countless channels of information to an
increasing number of households. Id. at 116. “Surfing
the Net” further diminished the pull of local television
and, as the Internet matured, websites like YouTube
began offering an endless supply of competitive video

2017 Reconsideration Order, the FCC never granted a waiver
allowing the purchase of a second Top 4 rated station in a market.
17
Available at https://dp.la/exhibitions/radio-golden-age/radiotv (last visited on May 18, 2020).
18
Available at https://www.nytimes.com/1984/09/01/arts/
radio-news-surpassed-by-tv-in-survey.html.

21

programming. Id. at 118, 164. Since 1980, primetime
television ratings have declined more than 70%. See
2017 Ex Parte Letter, at Exhibit A, Slide 9. For a
business that depends on selling advertising
measured by audience size, this decline has
irrevocably changed the competitive market in which
local television stations operate. Nonetheless, the
“one to a market” rule remained until the FCC
adopted the reforms under review in this case.
The Duopoly Rule remained essentially
unchanged until 2017, despite the fact that the
marketplace for local television service changed
dramatically during this time.
In its 2017
Reconsideration Order, the FCC revised the Duopoly
Rule both to eliminate the Eight Voices Test and to
permit station owners to apply for permission to own
two Top 4 stations in a market. 2017 Reconsideration
Order at 9831, ¶ 66. In reversing its 2016 decision to
retain the older version of the Duopoly Rule, the FCC
found that the older Rule failed to respond to
marketplace changes and failed properly to credit the
“importance of broadcast television stations in their
local markets.” Id. at 9832, ¶ 69. In particular, the
FCC found that marketplace changes and increasing
competition justified relaxing the rules to ensure that
broadcasters can compete fairly. Id. at 9833–34, ¶¶
71–72. While broadcast television retains a central
place in the local video market, the FCC recognized
that local broadcast station ownership does not justify
regulation that is otherwise unnecessary to promote
competition. Id.
With respect to the Eight Voices Test, the FCC
reasoned that retaining the rule was arbitrary

22

because there is nothing magic about the number
eight and because prohibiting duopolies in markets
with fewer stations “prevents combinations that
would likely produce significant public interest
benefits.” Id. at 9876, ¶ 8 (Appendix B). Moreover:
In multiple instances, the Commission
acknowledged the potential public
interest benefits of common ownership,
which potentially allow a local broadcast
station to invest more resources in news
or other public interest programming
that meets the needs of its local
community. We find that the Eight
Voices Test denies the public interest
benefits produced by common ownership
without any evidence of countervailing
benefits to competition from preserving
the requirement. Furthermore, these
markets—including many small and
mid-sized markets that have less
advertising revenue to fund local
programming—are the places where the
efficiencies of common ownership can
often yield the greatest benefits. Our
action in repealing the Eight-Voices Test
will enable local television broadcasters
to realize these benefits and better serve
their local markets. In particular, the
record suggests that local news
programming is typically one of the
largest
operational
costs
for
broadcasters; accordingly, stations may
find that common ownership enables

23

them to provide more high-quality local
programming, especially in revenuescarce small and mid-sized markets.

Id. at 9835–36, ¶ 77.
With respect to the Top 4 Test, the FCC found
that the potential competitive harms it was originally
intended to prevent would not occur in all markets and
that “the rule may prohibit combinations that do not
present public interest harms or that offer potential
public interest benefits that outweigh any potential
harms.” Id. at 9837, ¶ 79. Accordingly, the FCC
replaced the Top 4 Test with a case-by-case review of
proposed transactions to determine whether a Top 4
combination is in the public interest. Id.
The FCC enacted these revisions to the Duopoly
Rule in November 2017, finally recognizing that
marketplace changes had eliminated any justification
for the “one to a market” rule in small and mid-sized
markets. Unfortunately, in September 2019, the
Third Circuit reinstated the older version of the Rule
containing the Eight Voices and Top 4 Tests, and thus
effectively reverted the regulatory landscape to its
1941 form for small and mid-sized markets.
II. The Court Should Grant The Petitions Because
The Third Circuit’s Decision Creates Uncertainty
For Businesses Like Gray’s And Forestalls
Further Improvements To Local News Production
In Small And Mid-Sized Markets.
By repeatedly rejecting the FCC’s attempts to
modernize its ownership rules and effectively freezing
the Duopoly Rule in its 1941 form, the Third Circuit
has significantly impeded further expansion and

24

improvements in local news production by companies
like Gray. For example, following the FCC’s 2017
modernization of the Duopoly Rule, but before the
Third Circuit’s decision reversing those changes, Gray
was able to complete three transactions:


In 2018, Gray acquired WFFP-TV (now WZBJ)
from Morning Star Broadcasting, LLC. This
was Gray’s second full-power station in the
Roanoke-Lynchburg DMA, which has fewer
than eight independently owned stations.



As part of Gray’s merger with Raycom Media
in early 2019, the FCC approved Gray’s
ownership of two Top 4 combinations, in
Honolulu, Hawaii and Amarillo, Texas, and
the creation of a station combination in
Richmond, Virginia, which lacks eight
independently owned stations.



In 2019, Gray acquired Top 4 station
KDLT(TV) from Red River Broadcasting in
Sioux Falls, South Dakota, Gray’s second Top
4 station in that DMA, which was acquired
pursuant to the FCC’s now-suspended case-bycase review process for Top 4 combinations.

Gray has made substantial investments in those
stations, providing viewers in those DMAs with
comprehensive local news and public interest
coverage. But each of these local station combinations
would have violated the older version of the Duopoly
Rule that was reinstated by the Third Circuit, and
thus would not have been permitted by the FCC prior
to its modernization of that rule or under the Third
Circuit’s current ruling.

25

The Third Circuit’s decision calls into question the
viability of these acquisitions. While the FCC has not
yet suggested that it would force Gray to unwind any
of the three transactions it completed under the
modernized Duopoly Rule, as long as the 1941 form of
the Rule remains effectively reinstated in small and
mid-sized markets, Gray’s ability to continue owning
and operating these stations will be in doubt. Further,
Gray must obtain FCC approval of these combinations
when it seeks to renew its license to own each station,
and the FCC would need to approve any attempt by
Gray to sell these stations to another party as a
combination. These risks make investment in these
stations more difficult and uncertain, and undermine
the ability of Gray and companies like it to continue
investing in and expanding local news service.
The Third Circuit’s decision not only creates
uncertainty for Gray, but also prevents Gray from
implementing its business strategy in additional small
and mid-sized markets.
For example, Gray’s
acquisition of WCJB in Gainesville and subsequent
investments in that station (as discussed above) have
made WCJB into a ratings giant. The next logical step
for Gray would be to acquire a second station to
leverage its investments and take advantage of
economies of scale.
The Third Circuit’s ruling,
however, locks in place FCC rules that generally
prohibit Gray from further acquisitions in Gainesville.
Viewers in such small and mid-sized markets will thus
be deprived of the benefits of Gray’s investments and
its proven track record of improving news and public
service in local communities.

26

For the foregoing reasons, it is imperative that the
Court grant the petitions and reverse the Third
Circuit’s decision so that the FCC’s modernized
Duopoly Rule can take effect.
CONCLUSION
The Court should grant the petitions for writs of
certiorari.
Respectfully submitted,
KEVIN P. LATEK
ROBERT J. FOLLIARD III
GRAY TELEVISION, INC.
4370 Peachtree Rd., NE
Suite 400
Atlanta, GA 30319
(404) 266-8333
BARRETT J. ANDERSON
COOLEY LLP
4401 Eastgate Mall
San Diego, CA 92121
(858) 550-6000

DAVID E. MILLS

Counsel of Record
ELIZABETH B. PRELOGAR
ROBERT M. MCD OWELL
COOLEY LLP
1299 Pennsylvania Ave., NW
Suite 700
Washington, DC 20004
(202) 842-7800
dmills@cooley.com

Counsel for Amicus Curiae
May 20, 2020

